HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Nebraska, (A-07-95-01167)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of Nebraska," (A-07-95-01167)
January 29, 1996
Complete Text of Report is available in PDF format
(210 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs claimed
for Medicare Reimbursement by Blue Cross and Blue Shield of Nebraska (Nebraska).
We determined that Nebraska claimed pension costs for 1987 through 1994 that
are unallowable for Medicare reimbursement. During this period, the allowable
Medicare pension costs were $73,844. However, Nebraska claimed pension costs
of $79,919 for Medicare reimbursement. As a result, Nebraska claimed $6,075
in pension costs that were unallowable. The over claim occurred primarily because
Nebraska did not base its claim on separately computed cost accounting Standards
(CAS) pension costs for the Medicare segment. We recommended Nebraska revise
its Final Administrative Cost Proposals to eliminate the unallowable pension
costs. We also recommended that Nebraska base future claims for Pension costs
on separately compound CAS costs for the Medicare segment. Nebraska accepted
our recommendation.